No. _____
______________________________
IN THE SUPREME COURT OF THE UNITED STATES

RICHARD LEWIS KATZIN, ESTATE OF ANNETTE KATZIN, ESTATE OF MARY
BETH KATZIN-SIMON, AND ROSEMARIE KJELDSEN,
Petitioners,
v.
UNITED STATES,
Respondent.
___________________
APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION
FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
___________________
EDILBERTO BERRÍOS PÉREZ
REC Law Services, PSC
Capital Center Buidling
Suite 900
San Juan, PR 00918
Telephone: (787) 753-0884
eberriosperez@reclawservices.com
Counsel for Petitioners Richard Lewis
Katzin, Estate of Annette Katzin,
Estate of Mary Beth Katzin-Simon and
Rosemarie Kjeldsen
June 14, 2019

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION
FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT
To the Honorable John J. Roberts, Jr., Chief Justice of the Supreme Court of the
United States and Circuit Justice for the United States Court of Appeals for the Federal
Circuit:
Pursuant to Supreme Court Rules 13.5, 21, 22 and 30, Petitioners Richard Lewis
Katzin, the Estate of Mary Beth Katzin-Simon, the Estate of Annette Katzin and
Rosemarie Kjeldsen respectfully request a sixty (60) days extension of time, up to and
including August 23, 2019, to file a petition for a writ of certiorari to the United States
Court of Appeals for the Federal Circuit to review that court’s divided decision in Katzin,
et al, v. United States, No. 16-2636 (Fed. Cir. 2018) (attached as Exhibit A) issued on
November 19, 2018 with a dissenting opinion included with Exhibit A, and the order of
denial of the petition for rehearing entered on March 26, 2019 (attached as Exhibit B).
The petitioners intend to file a joint petition seeking review of this judgment under
Supreme Court Rule 12.4. The jurisdiction of this Court will be invoked under 28 U.S.C.
§ 1254(1), and the time to file a petition for a writ of certiorari will expire without an
extension on June 24, 2019. This application filed jointly by petitioners is timely because
it has been filed at least ten days prior to the date on which the time for filing the petition
is set to expire. See S. Ct. R. 30.2.
BACKGROUND
Petitioners own a 68.8-acre, unimproved parcel of land on the island of Culebra,
Puerto Rico. The land is suitable for development for residential and other purposes and,
in 2006 a group of investors contracted to purchase it for $4 million. But before the sale
closed, the investors contacted the U.S. Fish and Wildlife Service (“FWS”) to ask
2

whether the United States held title to any of the land covered by the contract. In
response, the FWS informed, through several different communications complete with
maps and diagrams, that the Government claimed both a parcel known as the gun mount
and the ten-acre peninsula of the petitioners’ property. The investors informed the
petitioners by letter that, due to the Government’s claim of title, they would not complete
the sale.
Several other purchasers were interested enough to travel to Culebra to inspect the
property but, due to the Government’s continued claim that it owned a portion of the
property, though the exact location of the gun mount was uncertain, no offers were
received. At last, the petitioners’ real estate broker informed them that the land was
unmarketable and quit. As of today, the Government still asserts its claim of title, and the
petitioners cannot sell it. As the panel dissent states, “[t]he Court of Federal Claims found
that the ‘evidence of unsalability has not been contravened by the government.’ My
colleagues assign no error to that finding.” 1
In June 2012, the petitioners’ filed suit for the taking of their land and the $4
million contract and, following a nine-day trial, the Court of Federal Claims ruled that the
Government’s actions had deprived them of the right to sell the 10.1-acre peninsula,
which they owned, and that this was a Fifth Amendment taking. 2 The trial court awarded
them $610,962.97 in just compensation, equal to the value of the land taken. 3
The Government appealed, claiming that the trial court had erred in finding that the
petitioners, and not the Government, owned the 10.1 acres, and that the Government’s
actions did not constitute a taking of the petitioners’ land. A divided panel reversed,
1

Katzin v. United States, 908 F.3d 1350, 1368 (quoting Katzin v. United States, 127 Fed.
Cl. 440, 482 (Fed. Cl. 2016) (internal citation omitted) (Newman, J., dissenting).
2
Katzin v. United States, 127 Fed. Cl. 440, 482 (2016).
3
Katzin v. United States, 127 Fed. Cl. 440, 483 (2016).
3

holding that the Government’s claim of title could not constitute a taking, even if it made
the petitioners’ land unmarketable and valueless.
This case presents a substantial and important question of federal constitutional
law: Whether the Government’s unfounded assertions of title to private land rendering it
unsaleable and valueless constitute a taking of property without just compensation?
Below a divided panel of the Federal Circuit held that the Government’s claim of title
could not constitute a taking even if it rendered the property unmarketable and valueless.
In doing so, it created an exception to the Supreme Court’s decision that Government
action that makes land valueless constitute a taking. See Lucas v. S.C. Coastal Council,
505 U.S. 1003 (1992). And, contradicts the Supreme Court’s rule that the taking of one
stick in the bundle of property rights can be a taking where that stick is essential to the
owner’s enjoyment of the property. See Hodel v. Irving, 481 U.S. 704, 716-17 (1987).
Furthermore, it created intra-circuit confusion in a well settled area of law since it
directly contradicts the Federal Circuit’s precedent in which it found a taking where the
United States prohibited the exercising of mineral rights by letter explaining that it
thought that the mineral rights belonged to the United States. Yuba Nat. Res., Inc. v.
United States, 821 F.2d 638 (Fed. Cir. 1987).
As the panel dissent pointed out, the right to sell property is such an essential stick
in the bundle of rights that deprivation of that right alone constitutes a taking:
The “right to convey hearkens back to the Statute of Quia Emptores in the year
1290, and the right to alienate one’s property has been accepted as an incident of
an estate in fee simple ever since.” Chianese v. Culley, 397 F.Supp. 1344, 1345
(S.D. Fla. 1975). “[F]or what is the land but the profits thereof[?]” Lucas v. S.C.
Coastal Council, 505 U.S. 1003, 1017, 112 S.Ct. 2886, 120 L.Ed.2d 798 (1992)
(quoting 1 E. Coke, Institutes, ch. 1, § 1 (1st Am. ed. 1812)). 4

4

Katzin, 908 F.3d at 1367 (Newman, J., dissenting).
4

Although the Supreme Court in Kirby Forest Industries5 did not reach the issue of
whether deprivation of the right to sell is a taking, as the panel dissent states:
The Court expressly left open the question of “whether abrogation of an owner’s
right to sell real property, combined with a sufficiently substantial diminution of
its utility to the owner, would give rise to a taking,” id. at 15 n.25, 104 S. Ct.
2187, while recognizing that where there is “an interference with an owner’s
legal right to dispose of his land” there can be a taking. Id. at 15, 104 S. Ct.
2187.6
REASONS FOR GRANTING AN EXTENSION OF TIME
Petitioners’ time to file a petition for writ of certiorari should be extended for
sixty (60) days because the parties are currently engaged in good faith settlement
negotiations which may render the filing of the petition for a writ of certiorari moot. The
extension would not work any meaningful prejudice on any party because, if this Court
grants the petition, this Court would likely hear oral argument in fall or winter of 2019
and issue its opinion in the October 2019 term regardless of whether an extension is
granted.
CONCLUSION
For the reasons stated above, the petitioners respectfully request that the time to
file a petition for a writ of certiorari in this matter be extended for sixty (60) days, from
June 24, 2019, up to and including, August 23, 2019.
Respectfully submitted,
/s/ Edilberto Berrios Perez
EDILBERTO BERRIOS PEREZ
REC Law Services, PSC
Capital Center Building
Suite 900
239 Arterial Hostos Ave.
San Juan, PR 00918
Telephone: (787) 753-0884
5
6

Kirby Forest Indus., Inc. v. United States, 467 U.S. 1 (1984).
Katzin, 908 F.3d at 1368 (Newman, J., dissenting).
5

eberriosperez@reclawservices.com

6

